App. 1

APPENDIX A
Court of Appeal, Second Appellate District,
Division Three - No. B298896
S258107
[Filed November 13, 2019]
IN THE SUPREME COURT OF CALIFORNIA
En Banc
JOCELYN A. JOHNSON, Petitioner,
v.
WORKERS’ COMPENSATION APPEALS BOARD
and COCA-COLA BOTTLING COMPANY,
Respondents.
The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

App. 2

APPENDIX B
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA SECOND APPELLATE
DISTRICT DIVISION THREE
No. B298896
(W.C.A.B. No. ADJ2941365)
[Filed September 10, 2019]
JOCELYN A. JOHNSON,
Petitioner,
v.

)
)
)
)
)
)

WORKERS’ COMPENSATION
APPEALS BOARD and COCA-COLA )
BOTTLING COMPANY,
)
Respondents.
)
)

ORDER
THE COURT:
The petition for a writ of review filed herein has
been read and considered.
The petition is denied.
s/
EDMON, P. J.,

s/
LAVIN, J.,

s/
EGERTON, J.

App. 3

APPENDIX C
WORKERS’ COMPENSATION APPEALS
BOARD
STATE OF CALIFORNIA
Case No. ADJ2941365 (BGN 0131581)
(Los Angeles District Office)
[Filed November 23, 2019]
JOCELYN JOHNSON,
Applicant,
vs.

)
)
)
)
)
)
)

COCA COLA BOTTLING COMPANY;
KEMPER NATIONAL INSURANCE,

)
)

Defendants.

)
)

OPINION AND ORDER DENYING
PETITION FOR RECONSIDERATION
- Applicant in pro per seeks reconsideration of the
March 5, 2019 Findings and Order (F&O) issued by the
workers’ compensation administrative law judge
(WCJ). By the F&O, the WCJ found that neither the
November 27, 1996 Findings and Award nor the June
18, 2002 Findings and Award was procured by fraud.

App. 4
Applicant contends that the Findings and Awards
describe an incorrect beginning date for her injury, that
the incorrect date of injury was the basis for the formal
rating, that the agreed medical evaluator (AME) did
not fully address her medical conditions, and that she
was denied due process.
We have not received an answer from defendant.
The WCJ is unavailable and has not prepared a Report
and Recommendation on Petition for Reconsideration.
We have considered the allegations of applicant’s
Petition for Reconsideration. Based on our review of
the record and for the reasons discussed below, we will
deny applicant’s Petition for Reconsideration.

BACKGROUND
In her Opinion on Decision, the WCJ stated that,
Ms. Johnson suffered a cumulative trauma
injury during the period 6/19/19851 to 6/19/1988
while working at Coca Cola. A trial was held,
and in 2002, a Findings and Award issued
awarding Ms. Johnson 41.25% permanent
disability. Ms. Johnson filed a Petition for
Reconsideration that was denied, a Writ that
was denied, and a Petition to the Supreme Court
of California that was unanswered.

1 The prior Findings and Awards stated that applicant’s injury
began on “October, 1987.” On January 31, 2019, the parties
stipulated that applicant’s injury began onJune 19,1985. (Minutes
of Hearing and Summary of Evidence, January 31, 2019, p. 2.)

App. 5
At some point in time, the paper case file was
( destroyed by the WCAB.
(Findings and Order Opinion on Decision, March
5, 2019, p. 2.)
On January 31, 2019, the matter proceeded to trial
on the issue of fraud. (Minutes of Hearing and
Summary of Evidence, January 31, 2019, p. 2.) In
relevant part, applicant’s exhibits included applicant’s
May 13, 2002 cross-examination of the rating specialist
and the transcript of applicant’s January 18, 1996
deposition of the agreed medical evaluator. (Id. at pp.
3-5.) The WCJ admitted applicant’s exhibits into
evidence, and neither party called a witness to testify.
(Id. at p. 6.) Applicant filed a trial brief and an
amended trial brief.
On March 5, 2019, the WCJ determined that
applicant failed to submit evidence that would support
a finding of fraud and stated that,
There are limited instances in which the court
might reopen a Findings and Award more than
five years after the original date of injury. The
primary bases upon which a case might be
reopened would involve extrinsic fraud. (See,
e.g., Rogers v. WCAB, 68 Cal.Comp.Cases 975
(Cal.App.4th Dist. May 20, 2003).)
r

In her filed trial briefs, the applicant alleges the
trial judge erred in his interpretation of medical
evidence that was submitted to him at the time
of trial and upon which he based his decision in
2002. (See. i.e., Amended Trial Brief of the
Applicant filed 12/3/18 at 3:15-4:16; 4:26-5:6.)

App. 6
Insofar as the applicant’s allegations involve
evidence that was available at the time of the
original trial decision and was present at the
time the applicant’s appeals of that decision
were denied, the undersigned does not find a
legal basis upon which to reopen the applicant’s
original award.
(Findings and Order, Opinion on Decision,
March 5, 2019, pp. 1-3.)
DISCUSSION
Labor Code section 58032 provides in relevant part
that,
[t]he appeals board has continuing jurisdiction
over all its orders, decisions, and awards made
and entered under the provisions of this
division, and the decisions and orders of the
rehabilitation unit established under Section
139.5. At any time, upon notice and after an
opportunity to be heard is given to the parties in
interest, the appeals board may rescind, alter, or
amend any order, decision, or award, good cause
appearing therefor.
(Lab. Code, § 5803.)
The Worker Compensation Appeals Board’s power
to re-open pursuant to section 5803 “should be
exercised with great caution and when fraud,
inadvertence, mistake, or excusable neglect are clearly
shown.” (Nicky Blair’s Rest., supra, 109 Cal.App.3d at

2 All future statutory references are to the Labor Code unless
otherwise specified.

App. 7
957.) Further, the Workers Compensation Appeals
Board is powerless to reopen pursuant to section 5803
in the absence of good cause. (Id. at 955.) Additionally,
a petition to reopen may not be used to litigate issues
that should have been raised in a timely petition for
reconsideration and it may not be used to relitigate the
original award. (Nicky Blair’s Rest. v. Workers’ Comp.
Appeals Bd (1980) 109 Cal.App.3d 941, 956 [45
Cal.Comp.Cases 876].) This is because the failure of an
aggrieved party to raise an issue by seeking
reconsideration constitutes a waiver of the issue. (See
Lab. Code, §§ 5902 and 5904; Cedillo v. Workmen’s
Comp. Appeals Bd. (1971) 5 Cal.3d 450, 455-456 [36
Cal.Comp.Cases 497, 501]; U.S. Auto Stores v.
Workmen’s Comp. Appeals Bd. (Brenner) (1971) 4
Cal.3d 469, 476 [36 Cal.Comp.Cases 173, 177-178];
Maranian v. Workers’ Comp. Appeals Bd. (2000) 81
Cal.App.4th 1068,1076 [65 Cal.Comp.Cases 650, 656].)
Further, when a party fails to prevail on a petition for
reconsideration, the Appeals Board will not entertain
a successive petition by that party unless the party is
newly aggrieved. (Goodrich u. Industrial Acc. Com.
(1943) 22 Cal.2d 604, 611 [8 Cal.Comp.Cases 177];
Ramsey v. Workmen’s Comp. Appeals Bd. (1971) 18
Cal.App.3d 155, 159 (36 Cal.Comp.Cases 382); Crowe
Glass Co. v. Industrial Acc. Com. (Graham) (1927) 84
Cal.App. 287, 293-295 (14 IAC 221).) As stated in our
en banc opinion in Navarro v.A&A Framing (2002) 67
Cal.Comp.Cases 296, 299:
The general rule is that where a party has filed
a petition for reconsideration with the Board,
but the party does not prevail on that petition
for reconsideration, the petitioning party cannot ,

App. 8
attack the [Appeal’s] Board’s action by filing a
second petition for reconsideration; rather, the
petitioning party must either be bound by the
[Appeals] Board’s action or challenge it by filing
a timely petition for writ of review.
Further, in Kulcher v. Kulcher (1969) 1 Cal. 3d 467,
470-471 the California Supreme Court declared that
there is a basic public policy favoring finality of
judgments, and that an award may be set aside upon a
showing of extrinsic fraud, which “usually arises when
a party is denied a fair adversary hearing because he
has been deliberately kept in ignorance of the action or
proceeding or in some other way fraudulently
prevented from presenting his claim or defense.” (Id. at
471.) However, relief from the judgment is to be denied
“ ... if a party has been given notice of an action and
has not been prevented from participating therein. He
has had an opportunity to present his case to the court
and to protect himself from mistake or from any fraud
attempted by his adversary” (Id. at 472).
Here, applicant seeks to reopen the 1996 and 2002
Findings and Awards on the basis that they were
procured by fraud. She argues that the Findings and
Awards were based on an incorrect date of injury, that
the agreed medical evaluator did not fully address her
conditions, and that she was denied due process.
Applicant did not meet her burden to show extrinsic
fraud because she could have raised these contentions
at the 2002 hearing and raised any concerns she had
about the AME’s reporting when she deposed him on
January 18, 1996. Likewise, applicant had the
opportunity to raise any concerns she had about her

App. 9
permanent disability rating when she cross-examined
the rating specialist on May 13, 2002. Applicant’s 2002
Petition for Reconsideration was destroyed, and we do
not know what contentions she raised in that Petition.
If applicant failed to raise her current contentions in
the 2002 Petition for Reconsideration, she waived the
contentions. Conversely, if applicant raised her current
contentions in her 2002 Petition for Reconsideration,
she is bound by the 1996 and 2002 Findings and
Awards because they were not set aside on appeal.
Thus, there is no good cause to reopen the 1996 and
2002 Findings and Awards on the basis of fraud.
Accordingly, we will deny applicant’s Petition for
Reconsideration of the March 5, 2019 Findings and
Order.

App. 10

APPENDIX D
STATE OF CALIFORNIA
Division of Workers’ Compensation
Workers’ Compensation Appeals Board
Case No. ADJ2941365
[Filed March 5, 2019]
JOCELYN JOHNSON,
Applicant,
vs.

)
)
)
)
)
)
)

COCA COLA BOTTLING COMPANY;
KEMPER NATIONAL INSURANCE,

)
)

Defendants.

)
)
)

FINDINGS AND ORDER
OPINION ON DECISION
The above-entitled matter having been heard and
regularly submitted, the Honorable Cassandra
Stajduhar, Workers’ Compensation Judge, now decides
as follows:
FINDINGS OF FACT
1. Jocelyn Johnson, born 9/16/1955, while employed
during the period June 19, 1985 to June 19, 1988, as a
bottler, at Downey, California, by Coca Cola, did
sustain injury arising out of and in the course of

App. 11
employment to her low back, shoulders, respiratory,
neck, and psyche.
2. A Findings and Award issued in 2002 for 41.25
percent Perfnanent Disability.
3. A Petition for Reconsideration was denied
September 10, 2002 and subsequent appeals were
denied.
ORDER
IT IS ORDERED the applicant has failed to
submit evidence to support a finding of fraud.
DATE: March 5, 2019

s/
Cassandra V. Stajduhar

Workers’ Compensation Judge

i

App. 12
CASE NO: AD J2941365
JOCELYN JOHNSON,
vs.
COCA COLA BOTTLING COMPANY;
ALEXIS RISK MANAGEMENT

)
)
)
)
)

)
)

WORKER’S COMPENSATION JUDGE: Cassandra
Stajduhar
DATE OF INJURY:

06/19/1985 TO 06/18/1988

OPINION ON DECISION
This matter was submitted for decision on the issue
of fraud as alleged by the applicant, Ms. Johnson.
Ms. Johnson suffered a cumulative trauma injury
during the period 6/19/1985 to 6/19/1988 while working
at Coca Cola. A trial was held, and in 2002, a Findings
and Award issued awarding Ms. Johnson 41.24%
permanent disability. Ms. Johnson filed a Petition for
Reconsideration that was denied, a Writ that was
denied, and a Petition to the Supreme Court of
California that was unanswered.
At some point in time, the paper case file was
destroyed by the WCAB.
Ms. Johnson now has a number of allegations with
respect to the court’s 2002 trial decision as set forth in
her Trial Brief and Amended Trial Brief filed with the
Court.

App.13
There are limited instances in which the court
might reopen a Findings and Award more than five
years after the original date of injury. The primary
bases upon which a case might be reopened would
involve extrinsic fraud. (See, e.g., Rogers v. WCAB, 68
Cal. Comp. Cases 975 (Cal. App. 4th Dist. May 20,
2003).)
In her filed trial briefs, the applicant alleges the
trial judge erred in his interpretation of medical
evidence that was submitted to him at the time of trial
and upon which he based his decision in 2002. (See. i.e.,
Amended Trial Brief of the Applicant filed 12/3/18 at
3:15-4:16; 4:26-5:6.) Insofar as the applicant’s
allegations involve evidence that was available at the
time of the original trial decision and was present at
the time the applicant’s appeals of that decision were
denied, the undersigned does not find a legal basis
upon which to reopen the applicant’s original award.
The court does not find evidence to support a
finding of fraud; the applicant’s request to reopen her
case is denied.
DATE: March 5. 2019
s/_
Cassandra V. Stajduhar

Workers’ Compensation Judge

App. 14

APPENDIX E
State of California

PETE Wilson, Governor

DEPARTMENT OF INDUSTRIAL RELATIONS
DIVISION OF WORKERS’ COMPENSATION
INFORMATION & ASSISTANCE UNIT
P.O. BOX 420603
San Francisco, CA 94142
Tel: (415) 975-0700
[Seal]
August 14, 1998
Ms. Jocelyn Johnson
5329 Clark Street.
Lynwood, CA 90262-5501
Dear Ms. Johnson:
Per your request we are forwarding information
regarding a copy of your Worker’s Compensation
Appeals Board (WCAB) file.
The fees per California Code of Regulations 9990 is 10
cents per page plus tax and postage. Your file contains
413 pages for a cost of $41.30 plus $3.10 tax and
appropriate postage. If you wish the copy of your file,
please discuss this with the Van Nuys district office.
You should also discuss obtaining a file from your
attorney. Another option is hiring a copy service to go
to the board and copy the file for you.

App. 15
Very truly yours,
s/

K.C. Edgington
Information & Assistance Officer
/kce

App. 16

APPENDIX F
State of California

GRAY DAVIS, Governor

DEPARTMENT OF INDUSTRIAL RELATIONS
Workers’ Compensation Appeals Board
P.O. BOX 429459
San Francisco, CA 94142-9459
Tel: (415) 703-4580
[Seal]
January 27, 2000
Joseph A. Lane
Clerk, Court of Appeal
Second Appellate District
Division Two
300 South Spring Street, Rm. 2217
Los Angeles, CA 90013
RE:

2nd Civil No. B138205, Coca-Cola Bottling
Co. v. WCAB and Jocelyn A. Johnson
[WCAB Case No. BGN 0131581]

Dear Sir:
Respondent Workers’ Compensation Appeals Board
will not be filing an answer to the petition for writ of
review recently filed in the above-referenced matter. In
not filing an answer, no reflection is intended upon the
merits of the petition or the decision rendered by the
Board.

App. 17
Very truly yours,
s/

Vincent Bausano
Assistant Secretary, WCAB
State Bar No. 130912
VB/vpd
cc: Heisler & Bray
Attn: Douglas M. Bray, Esq.
6351 Owensmouth Ave., Ste. 100
Woodland Hills, CA 91367
Jocelyn Johnson
5329 Clark Street
Lynwood, CA 90262

